<html>
<title> - HOMELAND THREATS AND AGENCY RESPONSES</title>
<body><pre>[Senate Hearing 112-639]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-639

 
                 HOMELAND THREATS AND AGENCY RESPONSES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS


                             SECOND SESSION

                               __________

                           SEPTEMBER 19, 2012

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
76-070                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e392e311e3d2b2d2a363b322e703d313370">[email&#160;protected]</a>  



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
  Christian J. Beckner, Associate Staff Director for Homeland Security
                       Prevention and Protection
             Nicole M. Martinez, Professional Staff Member
               Nicholas A. Rossi, Minority Staff Director
     Ryan M. Kaldahl, Minority Director of Homeland Security Policy
         Marshall C. Erwin, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk
                 Patricia R. Hogan, Publications Clerk
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     4
    Senator Moran................................................    19
    Senator Akaka................................................    21
Prepared statements:
    Senator Lieberman............................................    31
    Senator Collins..............................................    34
    Senator Akaka................................................    36
    Senator Carper...............................................    37
    Senator Moran................................................    38

                               WITNESSES
                     Wednesday, September 19, 2012

Hon. Janet Napolitano, Secretary, U.S. Department of Homeland 
  Security.......................................................     6
Hon. Matthew G. Olsen, Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence........     9
Kevin L. Perkins, Associate Deputy Director, Federal Bureau of 
  Investigation, U.S. Department of Justice, on behalf of the 
  Hon. Robert S. Mueller III, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice......................    12

                     Alphabetical List of Witnesses

Napolitano, Hon. Janet:
    Testimony....................................................     6
    Prepared statement...........................................    40
Olsen, Hon. Matthew G.:
    Testimony....................................................     9
    Prepared statement...........................................    61
Perkins, Kevin L.:
    Testimony....................................................    12
    Prepared statement...........................................    73

                                APPENDIX

Responses to post-hearing questions for the Record:
    Secretary Napolitano.........................................    82
    Mr. Olsen....................................................   104


                 HOMELAND THREATS AND AGENCY RESPONSES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 19, 2012

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Carper, Pryor, Collins, 
and Moran.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning to all. This is our Committee's annual homeland threat 
assessment hearing. I want to welcome back Janet Napolitano, 
Secretary of the Department of Homeland Security (DHS); and 
Matt Olsen, the Director of the National Counterterrorism 
Center (NCTC); and welcome the Associate Deputy Director of the 
Federal Bureau of Investigation (FBI), Kevin Perkins, who is 
standing in for Director Robert Mueller today. The Director had 
to undergo an unexpected surgical procedure resulting from 
complications associated with a recent dental treatment so he 
is unable to join us today. But we welcome Mr. Perkins in his 
stead with confidence, and we extend best regards to the 
Director for a speedy recovery.
    This will be the final time that I have the privilege of 
chairing this annual hearing, so I want to use this opportunity 
to thank each of you for your leadership in our Nation's 
homeland security and counterterrorism efforts; to thank those 
who work with you in each of your departments or agencies; and 
more narrowly to thank you for the productive relationship that 
each of you and your predecessors have had with this Committee.
    The obvious fact, as I look at the three of you, and then 
look back, is that on September 11, 2001 (9/11), two of the 
three organizations testifying today did not exist, and the 
third, the FBI, was a very different organization than it is 
today, focused on domestic crime as it had been for quite a 
while.
    Obviously, in the aftermath of the terrorist attacks on 
America of September 11, 2001, Congress and the Executive 
Branch created the Department of Homeland Security and then, 
pursuant to the 9/11 Commission recommendations, created the 
National Counterterrorism Center. The FBI essentially re-
created itself into a first-rate domestic counterterrorism 
intelligence agency, in addition to carrying out all of its 
other responsibilities. And in his absence, we should thank 
Director Mueller for what I think is the extraordinary job he 
has done in overseeing this historic transformation and thank 
the two of you, Secretary Napolitano and Director Olsen, for 
what you have done.
    Together these changes represent the most significant 
reforms of America's national security organization since the 
1940s at the beginning  of  the  Cold  War. And  it  is  not  
coincidental  since  after 9/11 we understood that we were 
facing a very different threat to our national security and 
with an intensity that we had not experienced through most of 
American history, a very real threat to our homeland security.
    So as I look back, I really want to again thank you and 
your predecessors in each of these roles--although in the FBI, 
Director Mueller has pretty much been there the whole time--and 
the thousands of Federal employees who work under you, because 
I think without question, because of all that the three 
organizations represented here before us have done, the 
American people have been much safer here at home than we 
otherwise would have been if your agency had not existed. So 
with a lot of gratitude, I thank you for that remarkable 
transformation. We have made a lot of progress; we have kept 
the enemy away for most of the last 11 years.
    The most lethal threats or attacks on our homeland have 
actually been carried out, as we know, by homegrown terrorists: 
Nidal Malik Hasan at Fort Hood and Carlos Bledsoe at the Army 
recruiting station in Little Rock. But the battle goes on, and 
it is hard to reach a conclusion other than it will go on for a 
long time.
    Obviously, we hold this hearing today still mourning the 
deaths of the American Ambassador to Libya, Chris Stevens, and 
three other State Department personnel, still, speaking 
personally, infuriated by those attacks that resulted from a 
movement against--which I believe to be a terrorist act--our 
consulate in Benghazi on the 11th anniversary of the attacks of 
September 11, 2001.
    These attacks do many things, but they remind us, I think, 
first of the bravery and commitment of government officials who 
serve in countries around the world, supporting the struggles 
of people in those countries to live free and, by doing so, 
work to improve our own national security.
    The attack in Libya also reminds us that even though the 
core of al-Qaeda has been seriously weakened, we still face 
threats from an evolving and fractious set of terrorist groups 
and individuals, united by a common ideology, which is that of 
violent Islamist extremism. And I will have some questions to 
ask the three of you about the nature of the terrorist threat 
today and specifically with regard to the reaction to this 
film, whether you think it has raised the threat level against 
any places, institutions, or individuals here in the United 
States.
    In reporting to us on the terrorist threat to the homeland 
today, I also hope you will address other concerns, such as the 
effort to counter homegrown violent Islamist groups; the threat 
to our homeland and people in a different way over the last 
couple of years posed by Islamic Republic of Iran, its Iranian 
Guard corps, and the Quds force, part of it, and its proxy 
groups such as Hezbollah, which certainly seem to be reaching 
outside of their normal areas of operation in the Middle East 
and conducting attacks elsewhere. These include an attempted 
assassination, which was thwarted, of the Saudi ambassador here 
in Washington, and apparently the attack on a tourist bus in 
Bulgaria just a short while ago.
    I would like to just say a few words about cybersecurity, 
which has been a significant focus of this Committee this year. 
We know how serious the problem is. Enormous amounts of cyber 
espionage and cyber theft are going on, and there is increasing 
danger of a cyber attack. As you know, the Cybersecurity Act of 
2012, which was the compromise bipartisan legislation that made 
it to the Senate floor, has had problems getting enough votes 
to get taken up on the Senate floor. We worked for years with 
partners on both sides of the aisle. We had extensive 
consultations with private industry, and, of course, we went to 
substantial lengths to find common ground, including by making 
the standards voluntary and not mandatory for the private 
sector owners of cyber infrastructure.
    But despite the magnitude of the threat as recognized by 
national security leaders and experts from the last two 
Administrations, regardless of party, and the many compromises 
that were made, the bill was filibustered on the Senate floor 
last month so it could not come up. Thus was lost the best 
opportunity we have had to pass comprehensive cybersecurity 
legislation. And, of course, all of you have said, Director 
Mueller perhaps most memorably, that, in his opinion, the 
threat of cyber attack will soon replace the threat of terror 
attack as a danger for our homeland security.
    I believe that it is obvious that we are not going to pass 
the cybersecurity legislation before the election, and because 
we are probably leaving here in the next couple of days to 
return after the election, but I think it is still possible 
and, I would add, critical for Congress to pass a cybersecurity 
bill this session. And I certainly will continue to try to do 
everything in my power to do so. But I must say if the gridlock 
continues, as I fear it will, then the President and others in 
the Executive Branch should really do everything within their 
power, as I know they are considering actively now, to raise 
our defenses against cyber attack and cyber theft.
    The fact is that today, because of the inadequate defenses 
of America's privately owned critical cyber infrastructure, we 
are very vulnerable to a major cyber attack, perhaps a 
catastrophic cyber attack, well beyond in its impact what we 
suffered on September 11, 2001.
    I understand that Executive action cannot do everything 
legislation can to protect us from cyber attack, but it can do 
a lot. And as this session of Congress concludes at the end of 
this year, we have still failed to fix this problem and close 
some of our vulnerabilities to cyber attack. And I certainly 
hope the President will step in, along with you, Secretary 
Napolitano, and act as strongly as you can to protect our 
country. And I will be asking some questions of you when we get 
to that point in the testimony.
    So I thank you again for being here. I look forward to this 
hearing every year. It is sometimes unsettling, but it is 
really important as a report to both Congress and the American 
people about the status of the current threat to our homeland.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Last week, we observed the 11th anniversary of the horrific 
attacks of September 11, 2001. We again remembered the victims 
and the heroes of that day. And we acknowledged the dedicated 
military, intelligence, law enforcement, and homeland security 
professionals who have worked together to bring terrorists to 
justice and to prevent another large-scale attack within the 
United States. And I want to join the Chairman in thanking each 
of you for your hard work in that endeavor.
    Tragically, however, we have also witnessed violent attacks 
on the U.S. consulate in Benghazi, Libya, that resulted in the 
killings of our Ambassador and three other brave Americans. 
While these attacks remain under investigation, it is difficult 
not to see shades of the 1998 attacks on our embassies in Kenya 
and Tanzania, which were among the many precursors to the 
attacks of September 11, 2001. This tragedy once again 
underscores the ongoing threat we face, both abroad and at 
home, from violent Islamist extremists.
    In the aftermath of September 11, 2001, we took significant 
actions to address this threat. When Senator Lieberman and I 
authored the Intelligence Reform and Terrorism Prevention Act 
of 2004 (IRTPA), our aim was to improve coordination within the 
intelligence community and among the key stakeholders at all 
levels of government. Achieving the goals of this landmark law 
remains a work in progress.
    We know we face a determined enemy. Al-Qaeda in the Arabian 
Peninsula (AQAP) has tried repeatedly to exploit holes in our 
security. The failed 2009 Christmas Day bomber used a device 
specifically designed to avoid detection. The 2010 cargo plot 
sought to circumvent improvements in passenger screening by 
targeting cargo. In May of this year, al-Qaeda tried again. The 
bomb maker apparently sought to avoid the failures of the 
earlier Christmas Day attack. Through the aggressive efforts of 
our intelligence community, fortunately this plot was disrupted 
before it could threaten American lives. Nevertheless, that 
operation was also plagued by leaks--apparently from within the 
Executive Branch--that may have undermined future efforts and 
compromised sources.
    Not every threat that we face has been met with sufficient 
resolve and action. Perhaps the best example, which the 
Chairman has mentioned, is the ever-increasing cyber threat. 
Experts have repeatedly warned that the computer systems that 
run our electric grids, our water plants, financial networks, 
and transportation systems are vulnerable to a cyber attack 
that could harm millions of Americans. In fact, rarely has 
there been such a bipartisan consensus among experts that this 
threat must be addressed.
    Just last week, former Deputy Secretary of Defense John 
Hamre said that the threats in cyberspace ``took a darker 
turn'' this summer, as three very large corporations 
experienced cyber attacks ``designed to damage operations.'' 
Citing government sources, he said that at least two of the 
attacks may have come from Iran. China and Russia we know have 
also launched cyber attacks.
    To respond to this escalating threat, the Chairman and I 
have worked during the past 2 years to craft a bipartisan bill 
that relies on the expertise of government and the innovation 
of the private sector. Despite our hard work to find common 
ground, the Senate has failed to pass cybersecurity 
legislation. Given the significant damage already done to our 
economy and our security, as well as our clear vulnerability to 
even worse attacks, this failure to act is inexcusable.
    Former DHS Secretary Michael Chertoff, and former National 
Security Agency (NSA) and the Central Intelligence Agency (CIA) 
chief Michael Hayden describe the urgency this way: ``We carry 
the burden of knowing that 9/11 might have been averted with 
the intelligence that existed at the time. We do not want to be 
in the same position again when `cyber 9/11' hits. It is not a 
question of `whether' this will happen; it is a question of 
`when.' ''
    This time all the dots have been connected. This time the 
warnings are loud and clear, and this time we must heed them.
    In contrast to the known threat of cyber attacks, another 
persistent challenge we face comes from those threats that we 
fail to even anticipate--what the 9/11 Commission memorably 
referred to as ``a failure of imagination,'' the so-called 
black swan events that test our assumptions. These are our most 
vexing problems because we cannot simply build walls around 
every potential target. Nevertheless, if we strengthen 
information sharing and analytic capabilities, our law 
enforcement and intelligence officers can disrupt even more 
plots, whether they are ones that we know well are coming or 
those that we have never before seen.
    In my judgment, which is informed by numerous briefings and 
discussions with experts, the attack in Benghazi was not a 
``black swan'' but, rather, an attack that should have been 
anticipated based on the previous attacks against western 
targets, the proliferation of dangerous weapons in Libya, the 
presence of al-Qaeda in that country, and the overall threat 
environment.
    Whatever the plots hatched by our enemies, I am also 
concerned about vulnerabilities that stem from our own 
government's actions or failure to act.
    I have already noted what I believe to be the inexplicable 
lack of security in Benghazi, the grave, self-inflicted wounds 
from intelligence leaks, and the failure to enact a 
cybersecurity bill. There is also a genuine danger posed by the 
automatic, mindless cuts known as sequestration. Absent a 
commitment by the President and Congress to avoid this 
disastrous policy, the budget of every Federal agency 
represented here today--the Department of Homeland Security, 
the National Counterterrorism Center, and the FBI--the very 
agencies charged with protecting our Nation from terrorism and 
other disasters--will be slashed in an indiscriminate way, by 8 
percent or more, potentially harming such vital programs as 
border security, intelligence analysis, and the FBI's work.
    At a time when budget constraints require everyone to 
sacrifice and priorities to be set and waste to be eliminated, 
we should ask where resources can be spent more effectively and 
what tradeoffs should be made to balance the risk we face with 
the security we can afford. What we cannot afford, however, is 
to weaken a homeland security structure that is helping to 
protect the citizens of this country.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Secretary Napolitano, thank you for being here, and we 
would welcome your testimony at this time.

    TESTIMONY OF HON. JANET NAPOLITANO,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Thank you, Chairman Lieberman, 
Senator Collins, and Members of the Committee. And I would also 
like to thank Associate Deputy Director Perkins and Director 
Olsen for their partnership.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Napolitano appears in the 
Appendix on page 40.
---------------------------------------------------------------------------
    Mr. Chairman, this is my 17th appearance before you. It is 
my 44th hearing overall since becoming Secretary of the 
Department. I am grateful personally for this Committee's 
tireless advocacy on behalf of DHS, not only during its initial 
creation but in the time since. Senator, you have been one of 
our strongest supporters, and our Nation's security has 
benefited as a direct result. Thank you for all you have done 
to make the country more secure.
    Eleven years after the 9/11 attacks, America is stronger 
and more secure, thanks to the work of the men and women of 
DHS; our many Federal, State, local, tribal, territorial, and 
international partners; and Members of this Committee. And 
while the United States has made significant progress since the 
9/11 attacks, we know that threats from terrorists persist and 
continually evolve. We face direct threats from al-Qaeda. We 
face growing threats from other foreign-based terrorist groups 
which are inspired by al-Qaeda ideology, such as AQAP and al-
Shabaab. And we must address threats that are homegrown as well 
as those that originate abroad.
    These threats are not limited to any one individual, group, 
or ideology. And as we have seen, the tactics employed by 
terrorists can be as simple as a homemade bomb or as 
sophisticated as a biological threat or a coordinated cyber 
attack.
    While we deal with a number of threats and threat actors at 
any given time, three areas merit special sustained attention. 
The first is aviation. The Christmas Day 2009 plot, the October 
2010 air cargo threat, and the AQAP plot earlier this year that 
would have targeted a U.S.-bound airliner with explosives make 
clear that commercial aviation remains a target. Terrorists, 
especially AQAP, continue to seek ways to circumvent existing 
security measures. Their methods and tactics are sometimes 
ingenious and increasingly sophisticated.
    A second threat area is cybersecurity, as both of you have 
mentioned. Cyber threats and incidents have increased 
significantly over the past decade. Our Nation confronts a 
dangerous combination of known and unknown vulnerabilities in 
cyberspace: Strong and rapidly expanding adversary 
capabilities, and limited threat and vulnerability analysis and 
awareness.
    We are committed to working with the Congress to make sure 
the Department and our Nation have the tools and authorities we 
need to effectively confront threats to cyberspace, and that 
includes minimum standards for our Nation's critical 
infrastructure.
    We remain hopeful that the Congress can pass strong 
cybersecurity legislation, and I thank you, Chairman Lieberman 
and Ranking Member Collins, for your leadership in this area.
    The third area of growing concern is homegrown violent 
extremism. Within the context of U.S.-based violent extremism, 
we know that foreign terrorists groups affiliate with al-Qaeda 
and individual extremists are actively seeking to recruit or 
inspire westerners to carry out attacks against western and 
United States targets. Importantly, however, as recent events 
have demonstrated, we also know that violent extremism can be 
inspired by various religious, political, or other ideological 
beliefs. Moreover, the attack last week against the U.S. 
consulate in Libya that took the life of Ambassador Stevens and 
three other Americans, the terrorist attack in Bulgaria in 
July, as well as this summer's shootings in Aurora, Colorado, 
and Oak Creek, Wisconsin, demonstrate that we must remain 
vigilant and prepared. And certainly our thoughts are with 
those impacted by these senseless attacks.
    How do we mitigate the threat? We mitigate these threats in 
several ways. First and foremost, we have worked to build a 
homeland security enterprise that allows DHS and our many 
partners to detect threats earlier, to share information, to 
minimize risks, and to maximize our ability to respond and 
recover from attacks and disasters of all kinds.
    With respect to the aviation sector, we have implemented a 
layered detection system focused on risk-based screening, 
enhanced targeting, and information sharing, while 
simultaneously facilitating travel for nearly 2 million 
domestic air travelers every day.
    Following the December 2009 threat, we launched a historic 
global initiative to strengthen international aviation, which 
has improved cooperation on passenger and air cargo screening, 
technology development and deployment, and information 
collection and sharing, as well as the development of 
internationally accepted security standards.
    As part of this effort, last week, in Montreal, 13 member 
states of the International Civil Aviation Organization met to 
reaffirm our commitment to these principles and to continue our 
progress, including through the development of global air cargo 
security standards. We have strengthened information sharing 
with our international partners.
    For example, our new and historic passenger name record 
agreement with the European Union allows us to continue sharing 
passenger information so that we can better identify travelers 
who merit our attention before they depart for the United 
States.
    And in addition to our Pre-Departure Targeting Program, 
Immigration Advisory Program, and enhanced in-bound targeting 
operations, all of these allow us to more effectively identify 
high-risk travelers who are likely to be inadmissible to the 
United States and to make recommendations to commercial air 
carriers to deny boarding before a plane departs.
    And at home, we have continued the deployment of advanced 
technology at airports, including advanced imaging technology 
machines, while implementing new programs to make the screening 
process more efficient for trusted travelers through programs 
such as the Transportation Security Administration (TSA) Pre-
Check and Global Entry.
    Around the cyber domain, we have partnered with sector-
specific agencies and the private sector to help secure 
cyberspace, such as the financial sector, the power grid, water 
systems, and transportation networks.
    We have taken significant action to protect Federal 
civilian government systems through the deployment of intrusion 
detection systems like EINSTEIN, greater diagnostic and sharing 
of threat information, national exercises and incident response 
planning, public awareness and outreach programs, and a cyber 
workforce initiative to recruit the next generation of cyber 
professionals.
    And, internationally, we are working with our partners to 
share expertise, combat cyber crime, and strengthen shared 
systems and networks.
    Finally, we have improved our domestic capabilities to 
detect and prevent terrorist attacks against our citizens, our 
communities, and our critical infrastructure. We have increased 
our ability to analyze and distribute threat information at all 
levels. Specifically, we have worked to build greater analytic 
capabilities through 77 designated fusion centers, resulting in 
unprecedented levels of information sharing and analysis at the 
State and local level. We have invested in training for local 
law enforcement and first responders of all types to increase 
expertise and capacity at the local level.
    In partnership with the Department of Justice, we have 
transformed how we train front-line officers regarding 
suspicious activities through a nationwide Suspicious Activity 
Reporting Initiative. And as part of that initiative, we have 
helped to train over 234,000 law enforcement officials.
    We are in the final stages of implementing a Countering 
Violent Extremism curriculum for Federal, State, local, and 
correctional law enforcement officers that is focused on 
community-oriented policing, which will help front-line 
personnel identify activities that are potential indicators of 
terrorist activity and violence.
    We have also expanded training with respect to active 
shooter threats, providing a range of information, tools, case 
studies, and resources to Federal, State, and local partners to 
help them prepare for and, if necessary, respond to attacks 
involving active shooters.
    And through the nationwide expansion of the ``If You See 
Something, Say Something'' campaign, we continue to encourage 
all Americans to alert local law enforcement if they see 
something that is potentially dangerous.
    In conclusion, DHS has come a long way in the 11 years 
since September 11, 2001, to enhance protection of the United 
States and engage our partners in this shared responsibility. 
Together, we have made significant progress to strengthen the 
homeland security enterprise, but significant challenges 
remain. Threats against our Nation, whether by terrorism or 
otherwise, continue to exist and to evolve, and we must 
continue to evolve as well. We continue to be ever vigilant to 
protect against threats while promoting travel and trade and 
safeguarding our essential rights and liberties.
    I thank the Committee for your support in these endeavors 
and for your attention as we work together to keep the country 
safe.
    Chairman Lieberman. Thanks very much, Secretary Napolitano, 
for that opening statement, which was a good beginning for us.
    Probably most Americans, certainly a large number, know 
about the Federal Bureau of Investigation and the Department of 
Homeland Security. Probably very few know about the National 
Counterterrorism Center, which was created by what I call the 
9/11 Commission legislation. But it is really one of the most 
significant steps forward we have taken in our government. It 
is the place at which, to go back to language we all used after 
September 11, 2001, we make sure that the dots are on the same 
board and can be connected. As a matter of fact, as we have 
discussed, we have now figured out how to put so many dots on 
that same board, the challenge now is to see them all and see 
the patterns and the connections. But I think the folks at NCTC 
have really taken us a long way, working with the Department of 
Homeland Security and the FBI. And, Mr. Olsen, I thank you for 
your leadership and look forward to your testimony now.

   TESTIMONY OF HON. MATTHEW G. OLSEN,\1\ DIRECTOR, NATIONAL 
  COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Olsen. Thank you, Chairman Lieberman, Senator Collins, 
and Members of the Committee. I really do appreciate this 
opportunity to be here this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Olsen appears in the Appendix on 
page 61.
---------------------------------------------------------------------------
    I also want to express my appreciation to your Committee 
for its leadership on national security matters and certainly 
your support of NCTC from its inception. And I thank you for 
your kind comments this morning about our work, and I accept 
those on behalf of the men and women at NCTC. And I am also 
very pleased to be here with Secretary Napolitano and Associate 
Deputy Director Perkins. We are close partners in the fight 
against terrorism.
    In my brief remarks this morning, I will focus on recent 
events and highlight a few areas of real key concerns for us, 
and then I will take a moment to highlight our efforts at NCTC 
to analyze and share critical threat information.
    Certainly the attack on our diplomatic post in Benghazi 
last week that took the lives of four Americans, including 
Ambassador Stevens, is proof that acts of terror and violence 
continue to threaten our citizens and our interests around the 
world. As the President said of these Americans just this past 
Friday, they did not simply embrace the American ideal, they 
lived it.
    It is now our responsibility to honor them by fulfilling 
our mission to combat terrorism and to combat violent 
extremism. The intelligence community, I can tell you, is 
working as one to determine what exactly happened in Benghazi, 
to uncover new threats in the region, and then to identify and 
bring to justice those who are responsible for this attack.
    Last week's attacks I think should be viewed in the context 
of the evolving threat landscape we face that you have spoken 
about as well as the ongoing unrest and political transition in 
the region. More than a decade after the September 11th 
attacks, we face a dynamic threat from al-Qaeda, from its 
affiliates, as well as those who follow al-Qaeda's ideology. 
There is no doubt that over the past few years our government, 
working with our allies, has placed relentless pressure on al-
Qaeda's core leadership. We have denied the group safe haven. 
We have denied the group resources and the ability to plan and 
train. In short, the intelligence picture shows that al-Qaeda's 
core in Pakistan is a shadow of its former self.
    But even as al-Qaeda's leadership in Pakistan struggles to 
remain relevant, the terrorist threats we face have become more 
diverse. Al-Qaeda has turned to other groups to carry out 
attacks and to advance its ideology. These groups are based in 
an array of countries, including Yemen, Somalia, Nigeria, and 
Iraq.
    In particular, al-Qaeda in the Arabian Peninsula is the 
group that is most likely, we think, to attempt attacks against 
the United States. We saw this in May with the disruption of an 
AQAP plot to take down an airliner. Other affiliates and 
related groups, such as al-Qaeda in the Islamic Maghreb, al-
Qaeda in Iraq, Boko Haram in Nigeria, as well as militants 
based in Pakistan, all pose threats to our citizens and 
interests in those regions of the world.
    We are also focused on threats posed by Iran and by 
Hezbollah. Iran remains the foremost state sponsor of terrorism 
in the world, and over the past year, the threat from Iranian-
sponsored terrorism has increased.
    Inside the United States, we remain vigilant to prevent 
violent extremists from carrying out attacks in the name of al-
Qaeda. This past week, the FBI arrested a Chicago man after he 
allegedly tried to blow up a crowded bar in the city. Also last 
week, a Federal judge sentenced a Virginia man to 30 years in 
prison for plotting to  bomb  the  U.S.  Capitol. These  plots  
highlight  the  danger  that al-Qaeda inspired extremists pose 
to our country.
    And beyond these threats, we face a period of unrest and a 
period of transition in the Middle East and in North Africa. 
The Arab spring or awakening, now in progress for well over a 
year, has led to fundamental reforms in the region. Al-Qaeda 
was not part of this change, but the group is seeking to take 
advantage of the unrest in some areas, seeking to establish 
safe havens and to recruit extremists where security is 
diminished.
    Now, if I may, turning to the role of the National 
Counterterrorism Center, Congress and this Committee created 
NCTC to help lead this effort to combat these threats. Our 
founding principle is the imperative to integrate all terrorism 
information and to share that knowledge with those on the front 
lines of this fight. I will take a few moments to describe the 
ways in which we are seeking to achieve this goal every day at 
NCTC.
    First, intelligence information and state-of-the-art 
analysis. NCTC serves as the primary organization in the 
government for integrating and assessing all intelligence 
relating to international terrorism. We have a unique 
responsibility to examine all terrorism issues, spanning 
geographical boundaries to identify and analyze threat 
information, regardless of whether that information is 
collected inside or outside the United States.
    At NCTC, our culture is defined by collaboration. Nearly 
every NCTC analytic product is coordinated throughout the 
intelligence community. It therefore reflects multiple 
perspectives for policymaker and operators alike.
    Second, access to data and technological innovation. We are 
promoting information integration and sharing with the 
development of a Counterterrorism Data Layer. This approach to 
data allows our analysts to access terrorist information that 
we have collected from across the government in a single place, 
and it allows us to do that without having to manually search 
multiple networks.
    Here, if I may, I would like to make a point about the 
Foreign Intelligence Surveillance Act (FISA) Amendments Act, a 
law that is set to expire at the end of this year. As this 
Committee knows, this law authorizes the government to collect 
valuable intelligence involving international terrorists and 
other enemies by targeting non-Americans who are overseas. 
These provisions were carefully crafted and carefully 
implemented to protect the privacy and civil liberties of 
Americans and should remain law.
    Third, NCTC has enhanced its focus on tactical intelligence 
and developing leads involving threats to the United States. We 
established a Pursuit Group--analysts from across the 
counterterrorism community who have unparalleled data access 
and expertise. Their mission is to focus on information that 
could lead to the discovery of threats, to connect those dots, 
and to identify actionable leads for agencies such as the FBI, 
the Department of Homeland Security, and the CIA.
    Finally, NCTC provides situational awareness and 
intelligence support to the broad counterterrorism community. 
Our Operations Center, which is collocated with the FBI's 
Watch, provides around-the-clock support to counterterrorism 
agencies. We also maintain the government's central repository 
for terrorist identities. This enables us to provide near-real-
time watchlisting data to support screening and law enforcement 
activities across the government.
    In addition, the Interagency Threat Assessment and 
Coordination Group (ITACG), which is located at NCTC and is led 
by senior DHS and FBI officers, brings Federal and State and 
local officers together in one place at NCTC. This group is 
dedicated to providing relevant intelligence on terrorism 
issues to State, local, tribal, and private sector partners, 
helping to ensure that information is shared with public safety 
officials, including police officers and firefighters. Faced 
with the possible loss of funding, we are working closely with 
DHS and FBI to retain this capability. Mr. Chairman, you have 
been a strong supporter of ITACG and have noted its successes, 
and I am personally committed to working with DHS and FBI to 
sustain this initiative, to find ways to do so in a cost-
effective way, and we are working closely together to chart a 
way ahead.
    I just want to close by identifying our most important 
assets, and that is our people. NCTC is working to meet the 
many challenges ahead, but that effort is really dependent on 
our diverse and dedicated workforce. Maintaining this 
workforce--through the continued commitment and support of 
agencies like DHS, the FBI, and other organizations--is a 
priority for me at the center.
    Mr. Chairman, Senator Collins, Members of the Committee, 
thank you again for the opportunity to speak with you this 
morning, and thank you for your continued support of NCTC. I 
look forward to answering your questions.
    Chairman Lieberman. Thank you, Director Olsen.
    Associate Deputy Director Perkins, thanks again for being 
here, and we welcome your testimony now.

 TESTIMONY OF KEVIN L. PERKINS,\1\ ASSOCIATE DEPUTY DIRECTOR, 
FEDERAL BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE ON 
BEHALF OF HON. ROBERT S. MUELLER III, DIRECTOR, FEDERAL BUREAU 
          OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Perkins. Good morning, Chairman Lieberman, Senator 
Collins, and Members of the Committee. Thank you for the 
opportunity to appear before the Committee today and for your 
continued support of the men and women of the FBI. I also want 
to thank Secretary Napolitano and Director Olsen and the men 
and women they lead in our joint fight against those seeking to 
do harm against U.S. citizens here and around the world.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Perkins appears in the Appendix 
on page 73.
---------------------------------------------------------------------------
    As you know, the Bureau has undergone unprecedented 
transformation in recent years. Since the attacks of September 
11, 2001, we have refocused our efforts to address and prevent 
emerging terrorist threats. The terrorist threat is more 
diverse than it was 11 years ago, but today, we in the FBI are 
in a better place to meet that threat.
    We also face increasingly complex threats to our Nation's 
cybersecurity. Nation-state actors, sophisticated organized 
crime groups, and hackers for hire are stealing trade secrets 
and valuable research from America's companies, universities, 
and government agencies. Cyber threats also pose a significant 
risk to our Nation's critical infrastructure.
    As these threats continue to evolve, the FBI must continue 
to adapt to counter those threats. We must continue to build 
partnerships with our law enforcement and private sector 
partners, as well as the communities we serve. Above all, we 
must remain firmly committed to carrying out our mission while 
protecting the civil rights and civil liberties of the people 
we serve.
    Counterterrorism remains our number one priority. We face a 
fluid, dynamic, and complex terrorist threat. We have seen an 
increase in the sources of terrorism, a wider array of 
terrorism targets, a greater cooperation among terrorist 
groups, and an evolution in terrorist tactics and 
communications methodologies.
    In the past decade, al-Qaeda has become decentralized, but 
the group remains committed to high-profile attacks against the 
West. Al-Qaeda affiliates and surrogates, especially al-Qaeda 
in the Arabian Peninsula, now represent the top 
counterterrorism threat to the Nation. These groups have 
attempted several attacks on the United States, including the 
failed Christmas Day airline bombing in 2009 and the attempted 
bombing of U.S.-bound cargo planes in October 2010.
    We also remain concerned about the threat from homegrown 
violent extremists. Over the past years, we have seen increased 
activity among extremist individuals. These individuals have no 
typical profile; their experiences and motives are often 
distinct. Lone offenders, some of whom may have some 
affiliation with known domestic terrorist organizations, 
present a special challenge. They may be self-trained, self-
financed, and self-executing. They are sometimes motivated to 
take action in furtherance of their ideological beliefs, but 
they stand on the periphery and are hard and difficult to 
identify.
    Unfortunately, we have recently seen a number of lone 
offender incidents, as we have recently witnessed the shooting 
at the Sikh Temple in Wisconsin.
    Now, as this Committee knows, the cyber threat has evolved 
and grown significantly over the past decade. Foreign cyber 
spies have become increasingly adept at exploiting weaknesses 
in our computer networks. Once inside, they can exfiltrate 
government and military secrets, as well as valuable 
intellectual property--information that can improve the 
competitive advantage of state-owned companies.
    Unlike state-sponsored intruders, hackers for profit do not 
seek information for political power; rather, they seek 
information for sale and trade to the highest bidder. In some 
cases, these once isolated hackers have joined forces to create 
criminal syndicates. Organized crime in cyberspace offers a 
higher profit with a lower probability of being identified and 
prosecuted. And hackers and hactivist groups such as Anonymous 
and Lulz-Sec are pioneering their own forms of digital anarchy.
    With these diverse threats, we anticipate that 
cybersecurity may well become our highest priority in the years 
to come. That is why we are strengthening our cyber 
capabilities in the same way we enhanced our intelligence and 
national security capabilities in the wake of the September 11 
attacks.
    We are focusing our Cyber Division on computer intrusions 
and network attacks. We are also hiring additional computer 
scientists to provide expert technical support to critical 
investigations ongoing in the field.
    As part of these efforts, we are expanding our cyber squads 
in each field office to become Cyber Task Forces that will be 
focused on intrusions and network attacks.
    We are also working with our partners to improve on the 
National Cyber Investigative Joint Task Force (NCIJTF)--the 
FBI-led multi-agency focal point for coordinating and sharing 
of cyber threat information. The NCIJTF brings together 18 law 
enforcement, military, and intelligence agencies to stop 
current and predict future attacks.
    As we have in the past, we will be inviting the 
participation of our Federal, State, and local partners as we 
move forward with these initiatives. As we evolve and change to 
keep pace with today's complex threat environment, we must 
always act within the confines of the rule of law and the 
safeguards guaranteed by the Constitution. Following the rule 
of law and upholding civil liberties--these are not burdens. 
These are what make all of us safer and stronger.
    Chairman Lieberman and Senator Collins, I thank you for 
this opportunity to discuss the FBI's priorities and the state 
of the Bureau as it stands today. Mr. Chairman, let me again 
acknowledge the leadership that you and this Committee have 
provided to the FBI. The transformation of the FBI over the 
past 11 years would not have been possible without the support 
of Congress and the American people. I would be happy to answer 
any questions you may have at this time, sir.
    Chairman Lieberman. Thanks very much, Associate Deputy 
Director Perkins. It has been a privilege to work with the FBI 
and the other agencies here.
    We will do a 7-minute first round of questions. Let me 
focus in on the recent wave of protests throughout large parts 
of the Muslim world, but also the attacks in Benghazi. Director 
Olsen, let me begin with you and see if you can help us 
separate this out. It certainly seems to me that there were a 
series of protests that were set off as a result of this film, 
and I will get back to that, but what happened in Benghazi 
looked like a terrorist attack. The NCTC uses the definition of 
terrorism, which I think is a good one, as ``politically 
motivated violence perpetrated against non-combatant targets by 
subnational groups or clandestine agents.''
    So let me begin by asking you whether you would say that 
Ambassador Stevens and the three other Americans died as a 
result of a terrorist attack.
    Mr. Olsen. Certainly, on that particular question, I would 
say yes, they were killed in the course of a terrorist attack 
on our embassy.
    Chairman Lieberman. Right. And do we have reason to believe 
at this point that the terrorist attack was sort of pre-planned 
for September 11, or did the terrorists who were obviously 
planning it--because it certainly seemed to be a coordinated 
terrorist attack--just seized the moment of the demonstrations 
or protests against the film to carry out a terrorist attack?
    Mr. Olsen. A more complicated question and one, Mr. 
Chairman, that we are spending a great deal of time looking at 
even as we speak, and obviously the investigation here is 
ongoing and facts are being developed continually.
    The facts that we have now indicate that this was an 
opportunistic attack on our embassy. The attack began and 
evolved and escalated over several hours. I said ``our 
embassy.'' It was our diplomatic post in Benghazi. It appears 
that individuals who were certainly well armed seized on the 
opportunity presented as the events unfolded that evening and 
into the morning hours of September 12.
    We do know that a number of militants in the area, as I 
mentioned, are well armed and maintain those arms. What we do 
not have at this point is specific intelligence that there was 
a significant advanced planning or coordination for this 
attack. Again, we are still developing facts and still looking 
for any indications of substantial advanced planning. We just 
have not seen that at this point.
    So I think that is the most I would say at this point. I do 
want to emphasize that there is a classified briefing for all 
of Congress that will take place tomorrow.
    Chairman Lieberman. Right. We will be there. Let me come 
back to what you said, that there was intelligence, as you 
indicated broadly a moment ago, that in eastern Libya, in the 
Benghazi area, there were a number of militant or violent 
Islamist extremist groups. Do we have any idea at this point 
who was responsible among those groups for the attack on the 
consulate?
    Mr. Olsen. This is the most important question that we are 
considering.
    Chairman Lieberman. Right.
    Mr. Olsen. We are focused on who was responsible for this 
attack. At this point, what I would say is that a number of 
different elements appear to have been involved in the attack, 
including individuals connected to militant groups that are 
prevalent in eastern Libya, particularly in the Benghazi area. 
As well, we are looking at indications that individuals 
involved in the attack may have had connections to al-Qaeda or 
al-Qaeda's affiliates, in particular al-Qaeda in the Islamic 
Maghreb.
    Chairman Lieberman. Right. So that question has not been 
determined yet whether it was a militant Libyan group or a 
group associated with al-Qaeda and influence from abroad.
    Mr. Olsen. That is right, and I would add that the picture 
that is emerging is one where a number of different individuals 
were involved, so it is not necessarily an either/or 
proposition.
    Chairman Lieberman. OK, good.
    Mr. Olsen. Again, as you know, the FBI is leading the 
investigation, and that is ongoing.
    Chairman Lieberman. Yes. I wanted to go to you now, 
Associate Deputy Director Perkins, and ask you about that. What 
is the status of the FBI investigation into the attack on our 
consulate in Benghazi, Libya?
    Mr. Perkins. Yes, Mr. Chairman, as Director Olsen noted, we 
have an open investigation at this time. We have a significant 
number of FBI agents, analysts, and various support employees 
assigned to this matter. We are conducting interviews, 
gathering evidence, and trying to sort out the facts. We are 
working with our partners, both from a criminal standpoint as 
well as in the intelligence community, to try to determine 
exactly what took place on the ground that evening.
    Chairman Lieberman. Secretary Napolitano, let me go to you, 
I know that last Thursday the Department of Homeland Security 
and the FBI released a bulletin indicating that this film was 
the apparent catalyst for these protests and that the fact 
could increase the risk of violence here in the United States 
and could motivate homegrown violent extremists, certainly with 
their recruitment efforts and perhaps with actions.
    I wonder if in this setting you could comment on the state 
of your concern about that and what steps DHS and the FBI are 
taking, along with other government agencies, to proactively 
address the potentially higher risk of homegrown terrorist acts 
as a result of the film?
    Secretary Napolitano. Right now, Mr. Chairman, we have no 
intelligence of impending violent attacks within the United 
States. There is open source information on some planned 
demonstrations in, I believe, Los Angeles and Houston, among 
other places. Those are posted on the Web. But we have no 
indication of anything that is violent in nature.
    Nonetheless, immediately after the attack in Benghazi, we 
began outreach to a number of groups within the country, faith-
based groups and others, who could be the target of a violent 
attack and provided them with guidance on things they can do to 
make sure they are as safe as possible. So we continue that 
outreach. We continue working with our local partners in terms 
of what they are seeing on the ground and then monitoring the 
open-source media.
    Chairman Lieberman. Thank you. Let me ask you finally what 
we as a government can do to counteract the impact of this 
film. You know, we are a country of almost 310 million people 
now. This film, hateful really, was done by a handful of 
people. And yet American embassies and consulates not only are 
the subject of protests, which is very much in the American 
spirit of civil protest and right of free speech, but going 
beyond that to destruction of property and, at its worse, a 
terrorist attack in Benghazi that kills four people. In one 
other case, I believe in Yemen, the demonstrators were armed. 
And, of course, in some cases, including Tunisia, the local 
police or security forces actually ended up having to fire at 
crowds to stop them from doing further damage.
    I know this is very sensitive, but we have to ask our 
friends in the Muslim world and ourselves to be willing to say 
this film does not represent us and, therefore, it is simply 
unacceptable, even if you are offended by the film, which we 
understand, to do more than protest, to begin to act violently. 
It is no more acceptable than it would be in this country if 
some group seized on the statements of a fringe religious 
leader or a political leader in some foreign country that 
attacked Americans, Christians and Jews, and as a result some 
group in America started to not just protest but to attack the 
embassy of the country in which that happened. In other words, 
we have to blow the whistle on this behavior. Fortunately, we 
have had some help from our allies in countries like in the 
governments of Libya and Tunisia, and I think we have to be 
forthright in doing that ourselves. So with apologies for the 
length of the question and the opportunity I took to get a 
little bit off my chest, I wonder if any of you could tell us 
what our government is trying to do now to challenge people in 
the Muslim world to confront the reality that this film is not 
representative of America or the American Government?
    Secretary Napolitano. Mr. Chairman, the film is absolutely 
not representative of America or the American Government. It is 
deplorable. The issue you raise is a difficult one. We are a 
country where people have rights, and one of the rights they 
have is to have free speech, and that can include things we 
find deplorable as well as other things.
    So we also recognize that there is a right to assembly, a 
right to petition the government, so we recognize the right to 
have a peaceful demonstration against deplorable speech.
    What we need to keep communicating is, as deplorable as we 
find that film to be, it is not, and never will be an excuse 
for violence and for the senseless killing we saw in Benghazi 
and other places. And we need that voice to come loud and 
clear, not just from Washington but from the country as a whole 
and internationally, and it needs to come from people of all 
faiths.
    Chairman Lieberman. Thank you very much. My time is up. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Mr. Olsen, I want 
to follow up on the series of questions that the Chairman 
raised with you about the attack in Benghazi that cost the 
lives of four Americans.
    First, I will tell you that, based on the briefings I have 
had, I have come to the opposite conclusion and agree with the 
President of Libya that this was a premeditated, planned attack 
that was associated with the anniversary of September 11, 2001. 
I just do not think that people come to protests equipped with 
rocket-propelled grenades and other heavy weapons. And the 
reports of complicity--and they are many--with the Libyan 
guards who were assigned to guard the consulate also suggest to 
me that this was premeditated.
    Nevertheless, I realize that is something you are still 
looking at, the FBI is still looking at, but I for one believe 
that the very forthright conclusion by the President of Libya 
is more likely the correct one.
    But putting aside the issue of whether this was an 
opportunistic attack or a premeditated one, the issue of the 
security of the consulate in what by any measure has to be 
considered a dangerous threat environment continues to trouble 
me. It is clear that the security situation in Benghazi was 
deteriorating given that there were at least four attacks that 
I am told about, beginning in June, on diplomatic and western 
targets. We are also all aware that Libya is awash in heavy 
weapons. I think there are something like 10,000 man-portable 
air-defense systems, maybe 20,000, that are still missing.
    We also know that it is a bastion for extremist groups, 
including offshoots of al-Qaeda. We know that the No. 2 person 
in al-Qaeda was a Libyan who was killed. The Libyan government 
is having a hard time controlling its borders, getting the 
militias under control. And even this week, the FBI team 
investigating the attack had difficulties getting to Libya 
safely because of the security situation.
    So given these facts, how would you personally have 
assessed the general threat environment prior to the attacks on 
our diplomats in Benghazi and the former Navy SEALs?
    Mr. Olsen. Well, Senator Collins, I would agree with your 
characterization of the threat pretty much as you laid it out. 
So the threat in Libya from armed militant groups, from al-
Qaeda-affiliated individuals was high, and that made Libya in 
some ways very similar to other countries in the region, and 
certainly similar to parts of Egypt and to northern Mali. We 
are concerned about Nigeria.
    So the region, particularly those countries following the 
Arab spring, are faced with real challenges from a security 
perspective. So we are, again, working with our partners, both 
in the Federal Government here but also with the governments in 
the region, seeking to increase the security capabilities of 
those as well as, of course, cooperating with them to look at 
specific threats or attacks, such as the investigation that is 
on going in Libya.
    Senator Collins. Was there any communication between NCTC 
and the State Department alerting them to the high-threat 
environment in which Benghazi was located and suggesting that 
be considered as the State Department evaluated its security?
    Mr. Olsen. So over the course of the last several months, 
again, you highlighted particularly events in June of this 
year, we know that there was a small-scale attack on our 
mission, our post in Benghazi in June. We also know that there 
was a more sophisticated attack involving the convoy with the 
British ambassador in Benghazi. So there were reports detailing 
those attacks and detailing generally the threat that was faced 
to U.S. and Western individuals and interests in eastern Libya 
from, again, armed militants as well as elements connected to 
al-Qaeda.
    There was no specific intelligence regarding an imminent 
attack prior to September 11 on our post in Benghazi.
    Senator Collins. Were there any indications that there were 
communications between extremist elements and the guards, the 
Libyan guards that were assigned to the consulate?
    Mr. Olsen. In the immediate aftermath--or prior to the----
    Senator Collins. Prior to the attack.
    Mr. Olsen. That question I think would be better addressed 
in the session that we are going to have tomorrow.
    Senator Collins. It just concerns me so gravely that there 
were not marines present in Benghazi to defend the consulate, 
and as I have been looking further into this issue, I am 
learning that the situation is far more common than I would 
have thought. We are relying on foreign nationals, perhaps on a 
British security firm that has been told to be unarmed, and 
other more questionable and less secure means of protecting our 
American personnel in extremely dangerous parts of the world. 
And I am just stunned and appalled that there was not better 
security for all of the American personnel at that consulate 
given the high-threat environment.
    I know you are not in charge of assigning security. You do 
communicate information to the State Department about the 
threat. Can you enlighten me at all on why decisions were made 
to have virtually no security?
    Mr. Olsen. I would say that we do as a community provide as 
much information as we possibly can in as timely a way as 
possible with the State Department as well as the rest of the 
Federal Government. I would say this: We do rely on host 
countries to help protect our diplomatic personnel in those 
countries. But I think that the ultimate question that you have 
asked of the decisions about the security at our post in 
Benghazi would be better addressed to the Diplomatic Security 
Service within the State Department.
    Senator Collins. Mr. Perkins, is your FBI team looking at 
security as well as trying to better understand how the attack 
came about and whether or not it was premeditated?
    Mr. Perkins. Yes, Senator. Let me start by saying I share 
your specific concerns regarding the security. In Libya, as 
well as on a larger scale, we have FBI employees posted around 
the world and in many places that have higher-than-usual 
security concerns. We need to do that to carry out our mission 
every day in the counterterrorism environment.
    But with regard to the specifics within Benghazi, within 
Libya itself, we are counting on our investigators on the 
ground to be able to sort that out, obviously, to gather the 
facts, go where the facts take us, and then on the back end to 
be able to work with the State Department, with Diplomatic 
Security's Regional Security Office, and others to share 
whatever it is we have found that may be of benefit to 
providing better security for the people on the ground.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    I do want to say for the record that last Friday, Senator 
Collins and I addressed a request to the Inspector General at 
the Department of State to do an investigation of what happened 
with regard to security at our consulate in Benghazi prior to 
these deadly attacks, and then to draw conclusions or lessons 
learned that might relate to provision of security generally, 
particularly at non-embassy locations throughout the world.
    The other thing I would say, although I understand you have 
a respectful disagreement on the question of whether the attack 
that resulted in the four American deaths in Benghazi was pre-
planned for that day or a spontaneous taking advantage of the 
protests that were going on, I do appreciate the fact, Director 
Olsen, that you as the head of the National Counterterrorism 
Center have told the Committee this morning without hesitation 
that you believe what happened in Benghazi was a terrorist 
attack. There seemed to be a little confusion about that over 
the last few days. And, of course, I could not agree with you 
more and will await your conclusion of the investigation as to 
whether you think it was pre-planned for that day or just 
spontaneous.
    My own inclination is to agree with Senator Collins, as I 
usually do, but I will await the investigation.
    In order of importance, we have Senators Moran, Akaka--did 
I say ``importance''? [Laughter.]
    I take that back because Senator Akaka is the most 
important Senator. But in order of appearance, Senators Moran, 
Akaka, Pryor, and Carper.
    Senator Moran. I very much appreciated your original 
comment, Mr. Chairman, but have great deference and respect for 
the Senator from Hawaii and recognize his importance.
    Chairman Lieberman. Thank you.

               OPENING STATEMENT OF SENATOR MORAN

    Senator Moran. What a difficult hearing with so many topics 
and how the world changes so often and so rapidly. So I thank 
the Chairman and the Ranking Member for hosting this hearing, 
and I appreciate our three witnesses and express my gratitude 
for the efforts that are being made to make certain that 
Americans remain safe and secure around the world.
    I need to focus my attention, Madam Secretary, as you would 
expect, on a conversation that we constantly have, and it deals 
with the threat of biological weapons, either intentional or 
inadvertent. For a long time, the Department of Homeland 
Security has been the lead department in developing a 
bioscience and agroscience facility, and I think all the 
hurdles that have been placed in making progress in the 
completion of this facility have now been completed with the 
National Academy of Sciences report that was released in July.
    You and I had a conversation in early August about the 
Office of Management and Budget. I would like to thank you 
personally for the graciousness and kindness that you have 
always demonstrated toward me in our conversations and your 
interest in this topic and in seeing a good conclusion to this 
facility being built. Every time you have testified, and every 
time I have asked you questions, you have expressed your 
support not only for the facility but for the location and the 
process by which that site location was made.
    I think we are at the point now, Madam Secretary, at which 
there is no reason for you, your Department, not to allow the 
facility to proceed. There is a lot of uncertainty now with the 
contractors that are on site and when their contracts expire, 
and all money that has been spent on this facility to date has 
been from the State of Kansas, and the Congress has 
appropriated $40 million for use in the utility plant and 
another $50 million to begin construction. It seems clear to me 
that whether or not those dollars are available for those 
purposes rests in your hands. It would require also in addition 
to the money that the land be transferred. I think that also 
rests at your desk. And my question, I guess, is to be broadly 
asked: Now what, Madam Secretary? As we know, the construction 
timetable only becomes more expensive. We know the need for the 
facility, and I am not certain how long the contractors have a 
purpose for being on site if you do not release the funds. And 
I think Kansas has indicated its strong commitment to this 
process, is willing to continue to provide resources, work with 
you to accomplish that. But in the absence of a land transfer, 
I think our confidence that something is going to happen here, 
that our money is being well spent is greatly diminished.
    And so my question is, Madam Secretary, now what?
    Secretary Napolitano. Well, you are right, Senator Moran. 
We have had a number of things to accomplish as predicates to 
being able to move forward with the National Bio and Agro-
Defense Facility (NBAF), the most recent being the National 
Academy of Sciences' analysis. I think from all the studies, 
all the analyses, I think they confirm a couple of basic facts.
    One is we need a Bio Level 4 laboratory for this there. It 
is an essential part of our security apparatus, as it were.
    Two, the current facility at Plum Island is inadequate as a 
substitute, although it will have to serve as a bridge and some 
monies will have to be invested there to allow it to do so 
while we move forward with the NBAF.
    Three, as you say, I think it is time that we begin moving 
forward with the land exchange and the Central Utility Plant 
(CUP). Before we do so, I hope to host a meeting with the 
Kansas delegation and perhaps the governor to talk about out-
year funding, cost shares, and some of the things that Kansas 
has mentioned they are willing to contemplate. But the $40 
million for the CUP has been held in our fiscal year 2012 
budget. We have a fiscal year 2012 budget, so we can move 
ahead. So we will be in touch with your office about when we 
want to have such a meeting.
    But I think it is necessary for the country, and I think it 
is time to fish or cut bait.
    Senator Moran. Madam Secretary, I always appreciate what 
you say, and you expressed sentiments that I was pleased to 
hear. What I would follow up with is you indicate now is the 
time. What is the definition of ``now is the time''? From many 
of our perspectives, now is the time has been true for a long 
time. And, again, let me see what your understanding is of what 
happens on some date, September 30 or October 30, when the 
contracts have expired and the contractors leave. We would hate 
to have to rebid this, so I think when you say the time is now, 
it is not a matter of many months. It is a matter of a few 
weeks before this needs to happen.
    Secretary Napolitano. That is right.
    Senator Moran. Is that true?
    Secretary Napolitano. Yes, that is my understanding as 
well. I know some of you will be back in your home States, but 
it could be done by conference call or people can come back 
here. But I would hope to pull together something in the next 
couple of weeks.
    Senator Moran. Madam Secretary, I spoke with Governor 
Brownback last evening and I spoke again with him on the phone 
this morning during this hearing. His request of me is to tell 
you that he will be on a plane today or tomorrow, at your 
earliest convenience, to reach an agreement in which you will 
sign the transfer----
    Secretary Napolitano. Exchange, yes.
    Senator Moran [continuing]. And release the $40 million.
    Secretary Napolitano. We will be in touch with your office 
over the next few days to schedule such a meeting.
    Senator Moran. I appreciate that. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Moran.
    And now, Senator Akaka. If I may on a point of personal 
privilege before I call on Senator Akaka, this happens to be 
the day on which Senator Akaka will chair the last hearing of 
his Subcommittee on Oversight of Government Management, the 
Federal Workforce, and the District of Columbia this afternoon. 
Senator Akaka has really given extraordinary leadership to this 
Committee and worked particularly in a way that really is 
unsung but very important on human capital management in the 
Federal workforce.
    Senator Akaka will be concluding 36 years of service to the 
people of Hawaii, 22 in the Senate, 13 in the House, and 
retiring at the end of this year to spend more time with what I 
take to be the three great loves of his life: His beloved wife, 
Millie, his family, and the island paradise of Hawaii. Senator 
Akaka and his wife, Millie, have four sons, one daughter, 15 
grandchildren, and 16 great-grandchildren. Not bad. He is much 
loved here in the Senate and in Hawaii. He has accomplished an 
enormous amount in his time here. I want to just express to him 
not only my gratitude for his friendship and what an honor it 
has been to serve with him, but as the Chairman of the 
Committee to thank him for his steadfast and principled work on 
this Committee year in and year out.
    And since we are going out together, so to speak, at the 
end of this term, one of the benefits I hope, Senator Akaka, is 
that I will have time to visit you in Hawaii more often, and 
expecting that, I will, just as I turn it over to you, say, 
``Aloha pumehana.'' Not bad for a Yankee from New England. 
[Laughter.]

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. That is terrific. Thank you very much, Mr. 
Chairman, and thank you for your words. I am glad that we are 
stepping out of the Senate together, and I have enjoyed working 
with you very much throughout the years. I want to thank you 
and Senator Collins for your leadership on this Committee and 
in the Senate. You continue to do great work, so thank you very 
much, Mr. Chairman, for your words. And thank you so much for 
holding this timely hearing.
    I want to join all Americans in mourning the loss of the 
four brave and dedicated American public servants who died as a 
result of what we consider senseless attacks in Libya last 
week. I honor them and the thousands of civilian Federal 
employees overseas who risk their lives every day in service to 
this country. We all owe a debt of gratitude to those that have 
made essential contributions to fighting terrorism. In the face 
of domestic and international threats, we really rely on these 
workers to keep us safe, and we will continue to try to help 
these workers.
    Also, I want to commend the Departments of our witnesses 
for your increased efforts for protecting our Nation against 
terrorist attacks and for your partnerships that you have been 
bringing about so that we can have the best kind of efforts 
made for our country, and also for the training of 230,000 law 
enforcement officials to help in this effort. And I want to 
commend you for all of that.
    At my request, I want to tell the panel, the Government 
Accountability Office (GAO) issued a report last week that 
highlighted troubling vulnerabilities in the security of 
radiological materials used at medical facilities across the 
country. Terrorists could steal these materials to build a 
dirty bomb that would have devastating social and economic 
consequences.
    What is your reaction to this report of GAO? And what are 
the current threats regarding terrorists' acquisition of 
radiological materials?
    Secretary Napolitano. Senator, I will start and, again, 
thank you for your years of service to the country.
    With respect to that report, it is primarily medical 
radiological material. The Department of Energy has the 
responsibility for the security of that material and how it is 
handled, so we are reaching out to them to see what steps they 
intend to take with respect to those medical materials. And we 
will be happy to report back to you.
    Senator Akaka. Any further comments? Mr. Olsen.
    Mr. Olsen. Senator, as well I would like to thank you for 
your years of service.
    In answer to your question, what I would say as a general 
matter is that we do have at NCTC a significant element within 
our organization of analysts who are focused solely on 
radiological, chemical, and biological weapons, and the 
possibility of terrorists obtaining and using those. And we 
work closely with the National Counterproliferation Center in 
that regard, as well as with our domestic partners represented 
here, and the CIA and other agencies that focus overseas. It is 
obviously a significant concern for us, and so I will look 
forward to working, again, with Secretary Napolitano and the 
FBI on this issue.
    Senator Akaka. Thank you very much, Director. Mr. Perkins.
    Mr. Perkins. Yes, Senator, and I, too, congratulate you on 
your years of service to the country.
    I reflect what Madam Secretary and Director Olsen both 
stated. We have a Weapons of Mass Destruction Directorate that 
works closely with the Department of Energy, with components of 
DHS, as well as NCTC, in tracking, following, and in trying to 
be in a mode where we are able to detect any thefts along those 
lines. We will have to have some time to review the actual 
aspects of the GAO report and could get back to you on that. 
But we work closely with our counterparts in these agencies as 
well as the Department of Energy to mitigate those threats.
    Senator Akaka. Well, thank you again for your partnerships. 
It really shows. As you know, Secretary Napolitano, the Senate 
failed to pass comprehensive cybersecurity legislation prior to 
the August recess. Because the prospects of enacting 
legislation this year are dim, I support the President's use of 
his authorities to improve cybersecurity of the Nation's 
critical infrastructure such as the power grid.
    What are the contours of the Executive Order currently 
under consideration? And when do you expect it to be issued?
    Secretary Napolitano. Senator Akaka, there is an Executive 
Order that is being considered. It is still being drafted in 
the interagency process, but I would say that it is close to 
completion pending a few issues that need to be resolved at the 
highest levels. And, of course, the President will need to be 
involved. It is perhaps easier to say what cannot be in an 
Executive Order as opposed to what can be in an Executive 
Order.
    We still need cyber legislation. We still need the 
congressional action and appreciate the efforts everyone has 
made in this regard. This is something that the Congress should 
enact in a comprehensive fashion. We have come close, but we 
have not been able to get across the goal line here. But it 
remains an urgent need.
    There are at least three things I can think of just off the 
top of my head that an Executive Order cannot solve. One is it 
cannot solve some of the limitations we have on personnel, 
personnel hiring and salaries, and how that works. It cannot 
solve issues about liability protections, which are often 
viewed as a mechanism to foster timely and effective 
information sharing. And we cannot without legislation increase 
criminal penalties for the bad actors that we find or the FBI 
finds. So those are at least three important areas that even a 
robust Executive Order would not be able to cover.
    Senator Akaka. Well, thank you very much. My time has 
expired, Mr. Chairman. Thank you.
    Chairman Lieberman. Thanks, Senator Akaka.
    Let me pick up on the last round of questioning by Senator 
Akaka. I appreciate that report, Secretary Napolitano, and I am 
glad that the Administration is going forward with a sense of 
urgency about this because it is possible that we will be able 
for a variety of reasons to adopt cybersecurity legislation in 
the lame-duck session. But I agree with Senator Akaka. Based on 
what we have been through up until now, I would not count on 
it. I will be, obviously, quite pleasantly surprised if we are 
able to find common ground. And we are still working on it. We 
still have bipartisan discussions going on.
    But with that probability of the failure of Congress to 
adopt the Cybersecurity Act of 2012 or something like it, I 
think the sooner the Executive Branch is ready to try to fill 
whatever gaps it can, the safer the country will be. So I 
appreciate that, and I certainly take this to be what the pace 
of work in the Administration is, so I am not saying anything 
that is at odds with it. But I certainly would not wait to see 
how the lame-duck session works out. In other words, if we get 
something passed, then it will presumably overcome the 
Executive Order. And as you said, there are at least those 
three matters that are in legislation that the President cannot 
adopt by Executive Order.
    I assume, but I look for reassurance now, that you and the 
Department of Homeland Security are quite actively involved 
since you are charged with the unique responsibility for 
cybersecurity in the construction of a possible Executive Order 
or orders regarding cybersecurity.
    Secretary Napolitano. Mr. Chairman, yes, we have been very 
actively involved, as have some of the other agencies who have 
primary responsibility in this area. One of the benefits of the 
legislation, even though it did not pass, is it helped to begin 
educating people as to the really considerable civilian cyber 
responsibilities and capabilities that are already being 
exercised by the Department of Homeland Security. And I think 
that any Executive Order will reflect that as well.
    Chairman Lieberman. That is good. Even though we ended up 
with a proposal that would have made compliance with the 
standards voluntary--and I understand the President by 
Executive Order cannot make them mandatory--but we looked at 
the possibility that under existing statutory authority, 
various regulatory agencies might have the existing authority 
to make whatever standards emerged mandatory on the sector of 
the economy that they oversee. Do you know whether the 
Executive Order is considering that possibility?
    Secretary Napolitano. Mr. Chairman, without talking in 
detail because things are still in draft.
    Chairman Lieberman. Sure.
    Secretary Napolitano. But I can tell you that there has 
been a deep diver into sector-specific analysis as to where 
there may already exist some powers.
    Chairman Lieberman. That is good to hear. I am encouraged 
by that.
    Let me give you an opportunity one more time to rebut what 
seems to be driving a lot of the opposition to the bill, which 
is that this would be the heavy hand of government over the 
private sector that controls critical cyber infrastructure. 
Even though in the non-cyber infrastructure or primarily non-
cyber, the 18 areas that are designated now which DHS has 
authority over, you are working really quite constructively and 
collaboratively, I gather, with the private sector in each of 
those areas. So what more do you think you and we can do to 
reassure the private sector that this is intended to be 
collaborative, not coercive.
    Secretary Napolitano. Well, I think, Mr. Chairman, we need 
to continue to remind them that past is prologue to the future; 
that we have worked collaboratively on a number of areas 
outside of cyber affecting critical infrastructure; and that 
they themselves benefit if there are shared standards. And, 
quite frankly, with respect to core critical infrastructure, 
many businesses, communities, and families rely on that core 
infrastructure to be safe and secure. So that in and of itself 
I think elevates this to a different plane.
    We want to be collaborative. We think that is the way to 
go. It is truly public-private in contemplation and in current 
activity. But, again, a significant gap anywhere respecting 
core critical infrastructure can have ripple effects far beyond 
the individual entity that is the controller.
    Chairman Lieberman. Agreed. Associate Deputy Director 
Perkins, do you want to add anything? The FBI has developed 
really impressive cybersecurity capacities, obviously 
particularly with regard to domestic law enforcement. I take it 
you two are involved in the construction of a possible 
Executive Order?
    Mr. Perkins. Yes, Mr. Chairman, that is correct. We are 
working with our partners at DHS to effect that end, and I echo 
to some degree what Secretary Napolitano was talking about as 
far as the efficiency. We have to have the partnerships to make 
things work. In many of the things the FBI does, partnerships 
make our work efficient. In the world of cyber crime and cyber 
threat, partnerships are essential, more than efficient. They 
have to be there in order for us to carry out our mission.
    So looking at the past, looking at the success we have had 
with the partnerships with the private sector, we hope to play 
on that going forward to win the confidence and to get this 
type of partnerships, whether it be through legislation or 
Executive Order, in place that could benefit our ability to 
carry out our mission.
    Chairman Lieberman. My staff just handed me a note that 
said that Reuters news service is just reporting that the Bank 
of America's Web site has suffered intermittent problems amid 
threats on the Internet that a group was planning to launch 
cyber attacks on the bank and the New York Stock Exchange, 
again, in retaliation for this film. Do any of you know 
anything about that at this point?
    Secretary Napolitano. Mr. Chairman, there has been some 
ongoing activity, and whether it is retaliatory I do not think 
has been determined. Without going into more, I will just 
simply say that this is an example of where working public to 
private and private to public benefits everybody.
    Chairman Lieberman. Yes. Director Olsen or Associate Deputy 
Director Perkins, do you want to add anything?
    Mr. Olsen. I would just add, we were familiar with these 
reports as of last night, and so there have been ongoing 
efforts in this regard.
    Mr. Perkins. Yes, sir, that is accurate. We are working 
with DHS on that matter, but beyond that point right now I 
really cannot share a great deal of detail on it as we look 
into it.
    Chairman Lieberman. Good enough. It does make the point. 
Again, this is a news story that I am going from, but you have 
given some legitimacy to parts of it, although not clearly to 
whether it is related to the film. But it does make the point 
that we have been trying to make in the cybersecurity 
legislation that we are in an unusual circumstance now where 
the target of an attack by an enemy, whether a nation-state or 
a terrorist group, would just as likely, in some senses more 
likely, be privately owned cyber infrastructure that controls 
some significant part of life in America as opposed to 
attacking a military target or a government Web site or 
something of that kind.
    I want to move to another area, and that is, the extent to 
which over the last year or so the Iranian Revoluionary Guard 
Corps (IRGC) and Quds Force from Iran and its clients, 
including particularly Hezbollah, have attempted to perpetrate 
a number of terrorist attacks in countries around the world, 
again, most recently the successful terrorist attack on a 
tourist bus in Bulgaria. But, obviously, again, we know that 
last year the government of Iran apparently attempted to carry 
out an attack here in Washington against the Saudi ambassador 
to the United States using someone they believed to be a member 
of a Mexican drug cartel.
    I wanted to ask the three of you--first, to put this into 
context--my impression is that the Iranian Revolutionary Guard 
Corps and the Quds Force have made a strategic decision to move 
out of their immediate neighborhood and to begin to operate 
internationally. Am I correct on that, Director Olsen?
    Mr. Olsen. What I would say, Mr. Chairman, is that we have 
seen an uptick in operational activity by the Iranian 
Revolutionary Guards Force and the Quds Force over the last 
year or so. And certainly to your point, the plot against the 
Saudi ambassador here in Washington last fall highlighted a 
willingness of Iran and its terrorist elements to actually 
carry out or seek to carry out an attack inside the United 
States.
    Chairman Lieberman. Right. And what I am wondering is am I 
right--my impression certainly is that whereas traditionally 
the IRGC and the Quds Force have operated within the Middle 
East through Hezbollah--perhaps sometimes Hamas, certainly 
Hezbollah--and Iraqi Shia militias in, obviously, Iraq, that 
now they seem to be spreading out more broadly. The two cases 
we know are the United States and Bulgaria.
    Mr. Olsen. I would say that your impression is consistent 
with my own insofar as certainly we have seen Iranian influence 
in Iraq and in Afghanistan. But we have also seen links between 
Iran and terrorist operations in India, Thailand, and Georgia. 
So it is a threat that is posed beyond the immediate region of 
Iran.
    Chairman Lieberman. So let me ask any of you to what extent 
now this expansion of terrorist activity sponsored by the 
Iranian government rises as a threat to our homeland among the 
other terrorist threats to our homeland?
    Mr. Olsen. I will take that, at first at least. Again, you 
mentioned and I discussed briefly the planned attack last fall. 
I would consider it to be a significant source of concern for 
us, both Iran and, again, its terrorist element, the Quds 
Force, as well as the group that it coordinates with, Lebanese 
Hezbollah.
    Chairman Lieberman. Right. Associate Deputy Director 
Perkins.
    Mr. Perkins. Yes, I agree with Director Olsen in that Quds 
Force, Hezbollah, and others have shown they both have the 
capability and the willingness to extend beyond that region of 
the world and likely here into the homeland itself. We look at 
it as a very serious problem. We look at it as a serious threat 
and that we are focusing intelligence analysts and other 
resources on that on a daily basis to monitor that threat, to 
make determinations, is it increasing, is it dropping off, and 
the like. But I agree with Director Olsen that they have the 
capability and they have the willingness to do that, which are 
two very important steps.
    Chairman Lieberman. Yes. And obviously you are coordinating 
with other parts of our intelligence community that have unique 
responsibility for intelligence outside of the United States.
    Mr. Perkins. That is correct, Senator, and that is a key 
point there, that this is a whole-of-government approach to 
dealing with this. This is very key across the entire 
intelligence community, both outside of the United States, as 
well as here in the homeland.
    Chairman Lieberman. Let me go to aviation security which, 
overall post-September 11, 2001, has been an area where we have 
put tremendous resources into the battle, and overall we have 
successfully defended our country and the enormous number of 
people, Americans and non-Americans, who travel by air. You 
offered testimony that al-Qaeda in the Arabian Peninsula 
nonetheless continues to show an intention to attack American 
and international aviation systems.
    I wonder, and I will begin, Secretary Napolitano, with you, 
apart from your statement in your prepared remarks, are there 
additional steps that you would like to highlight at this point 
which you think we can or should take to deter or detect future 
attacks via our aviation systems?
    Secretary Napolitano. Well, I think the whole aviation 
sector demonstrates the necessity to have a layered approach so 
that if someone or some group is able to evade one layer, 
another layer can pick them up. And it begins fundamentally 
with good intelligence, good intelligence sharing with our 
international partners, good intelligence sharing within the 
aviation sector, and good intelligence sharing among the 
Federal family. It goes to the standards that we require for 
planes bound for the United States, both for passengers and for 
cargo, and how we inspect those standards.
    It goes to what we ourselves require of airports and 
airport authorities that control, say, the perimeter of the 
airport. We have had one or two instances of breaches this last 
year. We have jumped on both of those to see why and what 
corrective measures needed to be taken.
    It goes to when you get into the airport, what you see in 
the area before you get to the gate, what you may not see in 
the area before you get to the gate, and the construction of 
the gate itself with the new technology. Then there are things 
that we are doing in the so-called sterile area where, even 
though we call it a sterile area, there is still a lot of work 
underway and different things that TSA does on different days 
at different times and different places to increase security. 
So it is an entire layered approach.
    One of the things I think has really helped and I think 
American passengers will begin seeing the benefits, if they 
have not already, is moving to a risk-based approach where, if 
we have pre-knowledge of a traveler and we have their 
biometrics, they are able to go through the airport and go 
through customs or whatever more quickly. So we are really 
encouraging that. That takes pressure off of the lines.
    The second thing that is going on is a lot of technology 
research to see if in this country, where we have the world's 
best scientists and engineers, we can devise a system that is 
even more efficient for travelers and yet deals with the 
evolving threat. Research cycles take time, but there is some 
very interesting work underway in that regard.
    Chairman Lieberman. Director Olsen, Associate Deputy 
Director Perkins, do you want to add to that?
    Mr. Olsen. Just a couple of quick points.
    First, in terms of the threat, and I know we have touched 
on this briefly, but we do see from al-Qaeda in the Arabian 
Peninsula that it has demonstrated its desire to carry out an 
attack involving the aviation sector, really three failed 
attempts since December 2009, including one just this past May. 
I concur completely with Secretary Napolitano in terms of 
developing a layered approach, in terms of NCTC's contribution 
to that effort. We maintain the identities database of known 
and suspected terrorists, which becomes the basis for 
watchlisting and screening, at least in part the types of 
screening that can take place at airports. And then, finally, I 
would highlight again the point that Secretary Napolitano made 
about the value of intelligence and developing at the earliest 
possible stages the signs, indications, and information about 
individuals who may be seeking to carry out such an attack so 
that we can disrupt that type of plot before that person ever 
seeks to board an airplane or go to an airport.
    Chairman Lieberman. Mr. Perkins.
    Mr. Perkins. Yes, Mr. Chairman, I echo their comments. I 
agree that AQAP is one of the top if not the top threat we face 
right now simply because of their active willingness to 
continue coming at us in that way.
    I echo Director Olsen's comments as far as intelligence 
goes. One of the things we have done recently to enhance and 
build our intelligence capabilities, especially within our 
Counterterrorism Division, is a better integration of our 
intelligence analysts into operations. Recently, we have named 
three deputy assistant directors who are all non-agent 
personnel, intelligence analysts, to lead those efforts within 
the Counterterrorism and Criminal Investigative Divisions. So 
the focus on intelligence ahead of time as well as the layered 
approach to thwart these attempts is vital.
    Chairman Lieberman. So you said something just now that 
anticipated the following question I was going to ask, which we 
are in a context, as we have said, where core al-Qaeda, which 
was responsible for the September 11, 2001, attacks on America, 
has been greatly weakened. Bin Laden is dead. A series of 
people who have worked their way up to replace others are gone. 
Abu Laith al-Libi, the Libyan who was close to the top, is now 
gone. Ayman al-Zawahiri unfortunately remains at liberty, but I 
am sure that he is in our sights nonetheless.
    So if I asked you to give me what you would rank as the top 
two or three Islamist terrorist threats to the homeland, what 
would you say? Associate Deputy Director Perkins, you said you 
might even put AQAP now at the top. What else? Other groups? 
Iran, Quds Force? Which?
    Mr. Perkins. Obviously, Quds Force, Hezbollah. A lot 
depends on future world events as to where exactly that goes. 
But as we echoed, they have the capability and the willingness 
so that puts them near the top of that list as well. Other 
emerging threats in other parts of the world that we look at in 
addition to AQAP, are some of the West Africa, East Africa 
threats in those regions, as far as their actual extent and 
threat to the homeland, there is debate in those areas. But, 
nonetheless, those are things that are near the top of our list 
to follow as they emerge.
    Chairman Lieberman. Director Olsen, how about you? What are 
your major concerns about sources of threats to our homeland?
    Mr. Olsen. In terms of the threat to the U.S. homeland, I 
would put  AQAP  at  the  top  of  the  list.  But  I  would  
also  put,  again, al-Qaeda core. Notwithstanding its greatly 
diminished capability, it does retain the intent--and we have 
seen this--to carry out an attack, even if it is a smaller-
scale, less sophisticated attack than we have seen in the past, 
against the U.S. homeland. And then, third--and, again, these 
are not in any particular order--but I would also include on 
that list Iran and Hezbollah, echoing the comment that the 
likelihood of an attack inside the United States depends 
largely on events in the Middle East and what we see.
    Chairman Lieberman. Understood. Secretary Napolitano.
    Secretary Napolitano. I would add to what was said the 
nature of homegrown Islamist terrorists or terrorism, what we 
saw, for example, the arrest in Chicago last Saturday of an 
individual. We have seen a pattern of this or several of these 
instances over the last year. I think the Internet serves as a 
facilitator for that, and I think the so-called lone wolf can 
also be a lone Islamist in that regard, driven by motivations 
that may be behind, for example, what occurred in Benghazi.
    Chairman Lieberman. Well, I thank you, the three of you, 
very much. Again, we have made great progress. I think the 
American people have reason not only to be grateful to you and 
all the work with you for our increased security in the face of 
a really unusual, unprecedented threat to our homeland 
security, unique really in American history--and we are not 
only improving our defenses, we are on the offense in a very 
real way. But the threat goes on, and so will the work that you 
and this Committee will continue to do, so I thank you very 
much.
    The record of the hearing will stay open for 15 days for 
any additional statements or questions that you or Members of 
the Committee have. Associate Deputy Director Perkins, you can 
tell Director Mueller that he does not have to appear anymore, 
that you have done very well. [Laughter.]
    With that, thank you. The hearing is adjourned.
    [Whereupon, at 11:55 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6070.001

[GRAPHIC] [TIFF OMITTED] T6070.002

[GRAPHIC] [TIFF OMITTED] T6070.003

[GRAPHIC] [TIFF OMITTED] T6070.004

[GRAPHIC] [TIFF OMITTED] T6070.005

[GRAPHIC] [TIFF OMITTED] T6070.006

[GRAPHIC] [TIFF OMITTED] T6070.007

[GRAPHIC] [TIFF OMITTED] T6070.008

[GRAPHIC] [TIFF OMITTED] T6070.009

[GRAPHIC] [TIFF OMITTED] T6070.010

[GRAPHIC] [TIFF OMITTED] T6070.011

[GRAPHIC] [TIFF OMITTED] T6070.012

[GRAPHIC] [TIFF OMITTED] T6070.013

[GRAPHIC] [TIFF OMITTED] T6070.014

[GRAPHIC] [TIFF OMITTED] T6070.015

[GRAPHIC] [TIFF OMITTED] T6070.016

[GRAPHIC] [TIFF OMITTED] T6070.017

[GRAPHIC] [TIFF OMITTED] T6070.018

[GRAPHIC] [TIFF OMITTED] T6070.019

[GRAPHIC] [TIFF OMITTED] T6070.020

[GRAPHIC] [TIFF OMITTED] T6070.021

[GRAPHIC] [TIFF OMITTED] T6070.022

[GRAPHIC] [TIFF OMITTED] T6070.023

[GRAPHIC] [TIFF OMITTED] T6070.024

[GRAPHIC] [TIFF OMITTED] T6070.025

[GRAPHIC] [TIFF OMITTED] T6070.026

[GRAPHIC] [TIFF OMITTED] T6070.027

[GRAPHIC] [TIFF OMITTED] T6070.028

[GRAPHIC] [TIFF OMITTED] T6070.029

[GRAPHIC] [TIFF OMITTED] T6070.030

[GRAPHIC] [TIFF OMITTED] T6070.031

[GRAPHIC] [TIFF OMITTED] T6070.032

[GRAPHIC] [TIFF OMITTED] T6070.033

[GRAPHIC] [TIFF OMITTED] T6070.034

[GRAPHIC] [TIFF OMITTED] T6070.035

[GRAPHIC] [TIFF OMITTED] T6070.036

[GRAPHIC] [TIFF OMITTED] T6070.037

[GRAPHIC] [TIFF OMITTED] T6070.038

[GRAPHIC] [TIFF OMITTED] T6070.039

[GRAPHIC] [TIFF OMITTED] T6070.040

[GRAPHIC] [TIFF OMITTED] T6070.041

[GRAPHIC] [TIFF OMITTED] T6070.042

[GRAPHIC] [TIFF OMITTED] T6070.043

[GRAPHIC] [TIFF OMITTED] T6070.044

[GRAPHIC] [TIFF OMITTED] T6070.045

[GRAPHIC] [TIFF OMITTED] T6070.046

[GRAPHIC] [TIFF OMITTED] T6070.047

[GRAPHIC] [TIFF OMITTED] T6070.048

[GRAPHIC] [TIFF OMITTED] T6070.049

[GRAPHIC] [TIFF OMITTED] T6070.050

[GRAPHIC] [TIFF OMITTED] T6070.051

[GRAPHIC] [TIFF OMITTED] T6070.052

[GRAPHIC] [TIFF OMITTED] T6070.053

[GRAPHIC] [TIFF OMITTED] T6070.054

[GRAPHIC] [TIFF OMITTED] T6070.055

[GRAPHIC] [TIFF OMITTED] T6070.056

[GRAPHIC] [TIFF OMITTED] T6070.057

[GRAPHIC] [TIFF OMITTED] T6070.058

[GRAPHIC] [TIFF OMITTED] T6070.059

[GRAPHIC] [TIFF OMITTED] T6070.060

[GRAPHIC] [TIFF OMITTED] T6070.061

[GRAPHIC] [TIFF OMITTED] T6070.062

[GRAPHIC] [TIFF OMITTED] T6070.063

[GRAPHIC] [TIFF OMITTED] T6070.064

[GRAPHIC] [TIFF OMITTED] T6070.065

[GRAPHIC] [TIFF OMITTED] T6070.066

[GRAPHIC] [TIFF OMITTED] T6070.067

[GRAPHIC] [TIFF OMITTED] T6070.068

[GRAPHIC] [TIFF OMITTED] T6070.069

[GRAPHIC] [TIFF OMITTED] T6070.070

[GRAPHIC] [TIFF OMITTED] T6070.071

[GRAPHIC] [TIFF OMITTED] T6070.072

[GRAPHIC] [TIFF OMITTED] T6070.073

[GRAPHIC] [TIFF OMITTED] T6070.074

[GRAPHIC] [TIFF OMITTED] T6070.075

[GRAPHIC] [TIFF OMITTED] T6070.076

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
